                                                       Department of the Interior
                                                      Office of Inspector General




                           AUDIT REPORT


                     U.S. Fish and Wildlife Service
                      Federal Assistance Grants
                   Awarded to the State of Georgia,
                   Department of Natural Resources,
                From July 1, 2003 Through June 30, 2005




  Report No. R-GR-FWS-0002-20006                                          January 2007
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                 United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                12030 Sunrise Valley Drive, Suite 230
                                       Reston, Virginia 20191

                                                                                        January 11, 2007

                                       AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Christina M. Bruner
            Director of External Audits

Subject:    Audit on the U.S. Fish and Wildlife Service Federal Assistance
            Grants Awarded to the State of Georgia, Department of Natural Resources,
            from July 1, 2003, Through June 30, 2005 (No. R-GR-FWS-0002-2006)

        This report presents the results of our audit of costs incurred by the State of Georgia
(State), Department of Natural Resources (Department), Coastal Resources and Wildlife
Resources Divisions. The Department incurred the costs under the U.S. Fish and Wildlife
Service (FWS) Federal Assistance grants. The audit included total reported outlays of
approximately $30.8 million on FWS grants that were open during state fiscal years (SFYs)
ended June 30 of 2004 and 2005 (see Appendix 1). The audit also evaluated Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned $42,920 in costs (federal share) that pertained to in-
kind contributions and identified issues that require FWS attention, including license revenues,
lifetime licenses, control of personal property, and the Department’s disaster recovery plan.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 4 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 11, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report please contact Chris Krasowski, the
Federal Assistance Coordinator, or me at 703-487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife restoration programs. The Acts allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the
state’s fish and wildlife agency.

Objectives
Our audit objectives were to determine whether the Department:

       •   claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and grant agreements;

       •   used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope

Audit work included reported outlays totaling approximately $30.8 million on 56 FWS grants
that were open during SFYs 2004 and 2005 (see Appendix 1). We performed our audit at
Department headquarters in Atlanta, Georgia and visited four regional offices, four wildlife
management areas, three boat ramps, two hatcheries, one waterfowl management area, one
management office, one conservation education center, and one public fishing area (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act of 1984, as amended, and by Office of Management and Budget Circular A-
133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests included:



1
    As amended 16 U.S.C. §§ 669 and 777, respectively.

                                                         2
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
    •   examining the evidence that supports selected expenditures charged to the grants by the
        Department;

    •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
        in-kind contributions, and program income;

    •   interviewing Department employees to ensure that personnel costs charged to the grants
        were supportable;

    •   conducting site visits to review equipment and other property; and

    •   determining whether the Department used hunting and fishing license revenues solely for
        sport fish and wildlife program purposes.

The audit team also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on the results of
initial assessments, we assigned a level of risk to these systems and selected a judgmental sample
of transactions for testing. We did not project the results of tests to the total population of
recorded transactions, nor did we evaluate the economy, efficiency, or effectiveness of
Department operations.

Prior Audit Coverage

On December 31, 2002, we issued a Report titled, “Final Advisory Report on Costs Claimed by
the State of Georgia Department of Natural Resources, Wildlife Resources Division and Coastal
Resources Division under Federal Aid Grants from the U.S. Fish and Wildlife Service from
July 1, 1997 to June 30, 1999” (No. 2003-E-0008). We followed up on all findings and
recommendations in the report and determined that all recommendations have been resolved.
The Department of Interior, Office of the Assistant Secretary for Policy, Management, and
Budget is tracking three recommendations for implementation. Two recommendations relate to
unreconciled differences between the Department’s real property records and those maintained
by FWS Region 4. The reconciliation, which the Department completed during our fieldwork, is
awaiting FWS Region 4 review. The third recommendation pertains to questioned costs.

We reviewed the State’s Comprehensive Annual Financial Reports for SFY 2005 and the Single
Audit report for SFY 2004. The reports did not include any findings regarding the Department’s
Federal Assistance grants or programs.




                                                  3
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                        Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidelines and reported and used program
income in accordance with federal regulations. However, we identified the issues listed below
that require attention by FWS, including $42,920 of questioned costs. We discuss these issues in
more detail in the Findings and Recommendations section.

     Questioned Costs: Unsupported In-Kind Contributions. We identified and questioned
     $42,920 (federal share) of unsupported in-kind contributions.

     License Revenue Expenditures Not Tracked. The Department cannot demonstrate that
     license revenues were used only for the administration of the state fish and wildlife agency.

     Lifetime Licenses Inadequately Tracked. The Georgia State Assembly did not make
     annual appropriations for lifetime license fees to the Wildlife Endowment Fund, as required
     by state law, and did not appropriate the interest earned on those fees.

     Inadequate Controls Over Personal Property. The Department’s Asset Management
     listing was inaccurate and incomplete and not all Department personal property items were
     tagged.

     [FOIA Exemption 2-high]


Findings and Recommendations
A.      Questioned Costs: Unsupported In-Kind Contributions

        The Department claimed that the state share of costs for grants F-75-1, F-75-2, F-76-1,
        and F-76-2 included third party in-kind contributions in the form of indirect costs waived
        or not billed to the contract by the contractors performing grant work. The Department
        could not provide adequate documentation that the contractor waived the indirect costs.
        As a result, we are questioning the in-kind contributions claimed that were based on the
        waived costs.

        According to the Code of Federal Regulations (43 C.F.R. § 12.64 (b)(7)), third party
        contributions to a fixed-price contract may count towards satisfying a cost sharing or
        matching requirement if it results in cost savings to the grantee. In addition, third party
        in-kind contributions must be verifiable from the state’s records and the records must
        show how the value placed on the contributions was derived (43 C.F.R. § 12.64 (b)(6)).
        To determine the amount of questioned costs for each grant, we:


                                                  4
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
            •   reduced the total grant outlays claimed by the amount of unsupported indirect
                costs;

            •   calculated the allowable federal share of grant costs by taking 75 percent of the
                revised grant outlays; and

            •   subtracted the revised allowable federal share from the original federal share
                claimed.

        Based on our calculations, we questioned $42,920 of costs (federal share) for all four
        grants.

        Recommendations

        We recommend that FWS:

        1. resolve the $42,920 of questioned costs and

        2. ensure that the Department maintains adequate supporting documentation for in-kind
           contributions based on waived indirect costs.

        Department Response

        The Department indicated that the contractor submitted letters documenting the approved
        indirect cost rate for the project years. The Department calculated in-kind contributions
        based on the indirect cost rate and stated that the calculations demonstrate an overmatch
        of in-kind contributions. The Department also indicated it will maintain the supporting
        documentation on file to be referenced in all future project documents and invoices.

        FWS Response

        FWS concurred with the finding and stated it will work with the Division to implement
        the recommendations in the corrective action plan.

        OIG Comments

        While the Division has taken steps to obtain and maintain supporting documentation for
        the indirect cost rate, additional information is needed in the corrective action plan,
        including:

             • documentation that the contractor waived the indirect costs that the Department
               calculated from the approved indirect cost rate;

             • targeted completion dates and officials responsible for actions taken or planned;
               and
             • verification that the FWS reviewed and approved the actions taken.

                                                  5
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
B.      License Revenue Expenditures Not Tracked

        The Department cannot provide documentation to demonstrate that license revenues were
        used only for the administration of the State fish and wildlife agency, as required under
        federal regulation. The Department deposits fees each year from the sale of hunting and
        fishing licenses with the State Treasurer so they may earn interest. The Georgia State
        Assembly appropriates funds annually for the State’s fish and wildlife program.
        According to the Department, the annual appropriations include an amount equal to the
        license revenues collected the prior year, the interest earned, and additional funding.
        Appropriated funds are considered State funds, and associated expenditures are tracked as
        expenditures paid for with State funds. Expenditures of the license revenues are therefore
        not tracked.

        Title 50 C.F.R. § 80.4 requires that license revenues be used only for the administration
        of the state fish and wildlife agency. License revenues includes: fees from the sale of
        hunting and fishing licenses; income from the sale, lease, or rental of real or personal
        property acquired or produced with license revenues; and interest earned on license
        revenues. A diversion of license revenues occurs when any portion of license revenues is
        used for any purpose other than the administration of the state fish and wildlife agency.

        The Department explained that, according to Georgia statues, revenues must be deposited
        with the State Treasurer to earn interest. Funds deposited with the State Treasurer can
        only be appropriated by the General Assembly. Since license revenues are not segregated
        from other appropriated funds, the Department cannot provide documentation to
        demonstrate how license revenues were expended, creating the potential for a diversion
        of license revenue. In addition, any assets purportedly acquired with license revenues
        may not be protected since the nexus between license revenues and associated
        expenditures cannot be established.

        Recommendation

        We recommend that FWS require the Department to take steps to ensure it can
        demonstrate that license revenues were used only for the administration of the State’s fish
        and wildlife agency.

        Department Response

        The Division proposed to establish a separate budget code to identify and track hunting
        and fishing license revenues. It stated that the budget code will be established for
        FY2008 (July 1, 2007) with an amount equivalent to the previous year’s earned license
        revenues plus accumulated interest, and that appropriate expenditures will be charged to
        the budget code.

        FWS Response

        FWS concurred with the finding and stated it will work with the Division to implement
        the recommendation in the corrective action plan.
                                                  6
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        OIG Comments

        The Division indicated it has taken steps to ensure it can track license revenue
        expenditures in the future and that only appropriate expenditures will be charged to the
        budget code. Additional information is needed on what policies and procedures the
        Division will establish to ensure revenues associated with the budget code are expended
        only on the administration of the fish and wildlife agency. The corrective action plan
        should include this information, as well as target completion dates, titles of officials
        responsible for actions taken or planned, and verification that the FWS reviewed and
        approved of the planned actions.

C.      Lifetime Licenses Inadequately Tracked

        The Department sells Lifetime Sportsman Licenses and collects license fees from hunters
        and anglers for these licenses. FWS requires states to report the number of hunting and
        fishing license holders annually and to certify the accuracy of their counts. Since
        Georgia’s lifetime licenses are multi-year licenses, the Department counts them in several
        annual license certifications. Fees from each lifetime license are deposited with the State
        Treasurer so they may earn interest. To meet federal regulations regarding license
        revenue, the state has developed procedures to ensure lifetime licenses continue to earn
        revenue beyond the year in which they were sold and that the revenue from license sales
        and subsequent interest earned is used only for state fish and wildlife activities. The
        State, however, has not followed these procedures consistently, leading to possible
        diversion of license revenue and making it unclear whether all lifetime licenses can be
        counted each year in the annual license certifications.

        FWS uses the license certifications to determine, in part, the annual apportionment of
        Federal Assistance Program funds for each state. Title 50 C.F.R. § 80.10 specifies the
        requirements for annual license certifications. Sections (a) and (b) require states to report
        the number of hunting and fishing license holders annually to FWS and to certify the
        accuracy of their counts. Section (c)(2) specifies that only revenue-producing licenses
        may be counted. Section (3) indicates that licenses valid in multiple years may be
        counted each year in which 1) they are valid and 2) generate net revenue during the same
        period for which hunting or fishing privileges are granted. Furthermore, the provisions of
        50 C.F.R. § 80.4 require that hunting and fishing license revenues (which includes
        interest, dividends, and other income earned on license revenues) be used only for the
        administration of the state fish and wildlife agency.

        To comply with these requirements, the Georgia State Assembly passed Georgia Code
        27-2-30. In this code, the Assembly recognized the need for lifetime licenses to generate
        annual income so they may be included in the apportionment formula for federal fish and
        wildlife funding. They:
           • established the Wildlife Endowment Fund (Fund), declaring the intent to
                appropriate annually to the Fund an amount equal to that generated by the prior
                year’s lifetime license sales and to prohibit the amounts appropriated from lapsing
                to the general fund; and

                                                  7
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
            •   required the appropriated amounts be spent only for the conservation and
                management of wildlife and fisheries resources and habitat acquisition.

        We examined the Fund’s Statement of Sales and Earnings and determined that not all
        license revenues were appropriated to the Fund on an annual basis. While license
        revenues for SFYs 2000 and 2004 were appropriated in the next fiscal year, as intended
        by code 27-2-30, license revenues for SFY1999 were not appropriated to the Fund until
        SFY2001 and license revenues for SFYs 2002 and 2003 were not appropriated to the
        Fund until SFY2005. Additionally, although the license revenues were deposited with
        the State Treasurer to earn interest, none of the interest earned was appropriated to the
        Fund. The Department could not explain why the Georgia General Assembly did not
        appropriate the funds annually as required by State law.

        Since revenues from license sales were not deposited in a timely manner to the Fund, it is
        uncertain whether the associated lifetime licenses should have been counted in
        subsequent years’ annual certifications. In addition, since the interest earned on license
        fees while on deposit with the State Treasurer was not deposited in the Fund, a potential
        diversion of license revenues may have occurred.

        Recommendations

        We recommend that FWS:

        1. determine whether lifetime licenses should have been counted in the annual license
           certifications when the required appropriation from lifetime license revenues—
           including both fees and interest earned—did not occur at all or was delayed beyond
           the next fiscal year;

        2. determine whether a diversion of license revenues has occurred; and

        3. work with the Department to establish procedures to ensure all revenue from lifetime
           licenses, including fees and associated interest, are appropriated to the Fund in a
           manner that would allow the licenses to be included in the state’s annual license
           certifications.

        Department Response

        The Division stated that in response to our finding and recommendations, it has
        calculated interest on lifetime licenses from FY1999 through FY2006 (June 30, 2006)
        from the time fees were collected until they were appropriated and deposited into their
        Wildlife Endowment Fund. The Division determined the total revenues from this interest
        and from lifetime license revenues not deposited since FY1999 to be $969,856. It stated
        that it requested this amount through the 2007 Supplemental Budget Process, and
        indicated that the funds should be appropriated into the Fund by April 2007. It also
        stated that the revenues and interest will be requested in the same manner with all future
        budget requests.

                                                  8
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        FWS Response

        FWS concurred with the finding and stated it will work with the Division to implement
        the recommendations in the corrective action plan.

        OIG Comments

        While the Division has taken steps to recover the revenues associated with the license
        certifications in question, additional information is needed in the corrective action plan
        documenting formal written procedures, as well as verification from the FWS that they
        reviewed and approved of the information provided and actions taken. The corrective
        action plan should also include information on targeted completion dates and titles of
        officials responsible for implementation of actions taken or planned.

D.      Inadequate Controls Over Personal Property

        Using the Department’s Asset Management listing 2 generated by the Department’s
        Property Section, we inspected personal property at 14 sites including the Wildlife and
        Coastal Resources Divisions headquarters offices in Social Circle and Brunswick,
        respectively, and at selected regional offices, wildlife management areas, hatcheries, and
        other sites (excluding boat ramps) listed in Appendix 2. With the assistance of the staff
        at each location, we inspected a sample of vehicles, equipment, and computer-related
        items and found that not all items were tagged and the inventory listing contained
        inaccurate and incomplete data.

        According to 50 C.F.R. § 80.19, the state must maintain current and complete property
        records in accordance with requirements in the Fish and Wildlife Service Manual and
        OMB Circular A–102, Grants and Cooperative Agreements With State and Local
        Governments. In addition, the Department’s Asset Management Procedures Manual
        requires that personal property be assigned responsibility to a specific person, that a
        numbered decal be affixed to the item, and that information such as decal number,
        description, and financial data be entered in the Asset Management System.
        Furthermore, physical inventories of all personal property must be performed yearly and
        any discrepancies (missing items, missing decals, and items not listed on the inventory)
        must be resolved.

        The Department provided a personal property inventory listing for the Wildlife and
        Coastal Resources Divisions which identified 6,306 items valued at $22.2 million,
        including vehicles, computers, and equipment. We selected a judgmental sample of 264
        items valued at $2.3 million to verify the items existed, had decals attached, and that the
        data in the inventory listing was accurate.

        Of the items sampled:


2
 The Asset Management Procedures define personal property as items with an acquisition cost of $999.99 or more
and a useful life greater than 3 years and firearms regardless of cost.

                                                     9
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
            •   we could not find 3 items valued at $5,657;

            •   49 items valued at $443,023 on the inventory listing had been transferred to other
                locations or surplussed;

            •   11 items valued at $117,126 were not tagged; and

            •   1 item sampled was not listed on the inventory.

        In addition, Coastal Resources staff provided a listing of 33 items valued at $155,923
        which were not on the Asset Management listing and for which no decals were provided.
        Wildlife Resources staff at two locations provided data for nine items which were
        missing decals and were not on the Asset Management listing (five items were valued at
        $26,899; the value of the other four items could not be established).

        We concluded that decals were missing because they fell off or were not provided to field
        personnel to install. The inventory records were inaccurate and incomplete because the
        Asset Manager did not make additions when items were acquired or corrections when
        information was provided by field personnel.

        Recommendations

        We recommend that FWS ensure the Department:

        1. accurately updates the data in the Asset Management System and

        2. replaces decals on items that do not have them attached.

        Department Response

        The Division stated that it has replaced property identification numbers on all items that
        were found unmarked during our audit. It also stated that items not found are being
        located and marked or will be eliminated from the inventory according to State
        procedures. It stated that all inventory items will be re-inspected and tagged by each
        region and that the Asset Management System will be updated within 30 days of receipt
        of the updated inventory reports.

        FWS Response

        FWS concurred with the finding and stated it will work with the Division to implement
        the recommendations in the corrective action plan.




                                                  10
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        OIG Comments

        While the Division has taken steps to ensure proper identification of personal property
        and an updated inventory, further information is needed in the corrective action plan to
        verify that FWS reviewed and approved of the actions taken. The corrective action plan
        should also contain targeted completion dates and titles of officials responsible for
        implementation.

E.      [FOIA Exemption 2-high]

        Recommendation

        [FOIA Exemption 2-high]

        Department Response

        [FOIA Exemption 2-high]

        FWS Response

        FWS concurred with the finding and stated it will work with the Department to
        implement the recommendation in the corrective action plan.

        OIG Comments

        [FOIA Exemption 2-high]




                                                  11
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 1
                                                                                              Page 1 of 2



                    GEORGIA DEPARTMENT OF NATURAL RESOURCES
                     FINANCIAL SUMMARY OF REVIEW COVERAGE
                         JULY 1, 2003 THROUGH JUNE 30, 2005
                                                                Questioned Costs
               Grant           Grant          Claimed           Total       Federal
              Number          Amount           Costs        (Unsupported)    Share

             F-16-40            $16,000          $16,000
             F-16-41            $16,000          $16,000
             F-24-31          $458,512         $553,956
             F-24-32          $484,000         $535,122
             F-41-19          $891,820         $923,895
             F-41-20          $841,020         $874,058
             F-42-18            $21,336          $21,334
             F-42-19            $21,336          $21,334
             F-44-16          $362,880         $372,643
             F-44-17          $323,336         $485,505
             F-61-9           $303,583         $230,898
             F-61-10          $232,877         $239,777
             F-62-9           $999,846         $847,279
             F-62-10          $995,356         $859,366
             F-65-6           $171,000         $211,184
             F-65-7           $161,668         $184,786
             F-68-2           $381,168         $404,461
             F-68-3           $387,836         $438,081
             F-69-2           $147,168         $203,944
             F-69-3             $97,668        $109,955
             F-70-2           $264,168         $292,295
             F-70-3           $234,668         $273,870
             F-71-2          $1,201,168       $1,247,942
             F-71-3          $1,201,168       $1,297,295
             F-72-2           $547,500         $675,364
             F-72-3           $560,000         $618,142
             F-73-2           $166,312         $220,470
             F-73-3           $200,136         $235,783
             F-74-2           $738,696         $804,180
             F-74-3          $1,053,336       $1,137,866
             F-75-1             $90,308          $90,308          $39,488         $16,901
             F-75-2             $94,352          $94,350          $41,284         $17,696
             F-76-1             $33,120          $33,120           $9,273          $3,974

                                                  12
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 1
                                                                                              Page 2 of 2


                     GEORGIA DEPARTMENT OF NATURAL RESOURCES
                      FINANCIAL SUMMARY OF REVIEW COVERAGE
                         JULY 1, 2003 THROUGH JUNE 30, 2005

                                                                  Questioned Costs
                 Grant           Grant          Claimed           Total       Federal
                Number          Amount           Costs        (Unsupported)    Share

              F-76-2              $34,520     $30,230             $10,148           $4,349
              F-77-1              $44,764     $44,283
              FW-5-1           $2,751,068 $3,340,155
              FWT-1-1          $1,642,382   $275,652
              W-6-59              $80,000   $110,185
              W-6-60             $120,000   $125,353
              W-28-44             $16,920     $16,920
              W-28-45             $19,660     $19,660
              W-36-43          $4,880,647 $5,545,500
              W-36-44          $4,429,364 $4,332,370
              W-55-13            $109,000   $130,756
              W-55-14            $114,782   $112,577
              W-57-13            $130,000   $154,235
              W-57-14            $130,000   $120,376
              W-59-9             $693,332   $693,332
              W-59-10            $677,333   $677,333
              W-64-2             $133,333     $67,769
              W-64-3             $133,333     $58,211
              W-64-4             $320,000   $120,493
              W-66-2             $107,311   $108,596
              W-66-3             $107,947   $102,970
              W-67-2              $25,460     $47,925
              W-67-3              $37,203     $37,203
                              $30,421,701 $30,826,647            $100,193         $42,920




                                                  13
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 2

                                      GEORGIA
                           DEPARTMENT OF NATURAL RESOURCES
                                    SITES VISITED
                  Wildlife Resources Division Headquarters Office, Social Circle
                   Coastal Resources Division Headquarters Office, Brunswick

                                           Regional Offices
                                             Brunswick
                                           Demeries Creek
                                             Gainesville
                                              Thomson

                                    Wildlife Management Areas
                                              Clybell
                                           Dawson Forest
                                              Oconee
                                            Sapelo Island

                                              Hatcheries
                                                Buford
                                             Richmond Hill

                                             Other Sites
                              Altamaha Waterfowl Management Area
                            Charlie Elliott Conservation Education Center
                                    McDuffie Public Fishing Area
                                  Sapelo Island Management Office

                                           Boat Ramps
                                             Altamaha
                                         Demeries Creek
                                    McDuffie Public Fishing Area




                                                    14
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 3


                                    GEORGIA
                      DEPARTMENT OF NATURAL RESOURCES
                 STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

      Recommendations                           Status                        Action Required

A.1, A.2, B, C.1, C.2, C.3,         FWS management concurs           Provide a corrective action plan
D.1, D.2, and E                     with the recommendations,        that identifies the actions taken or
                                    but additional information       planned to resolve and
                                    is needed in the corrective      implement the recommendations.
                                    action plan.                     The plan should also include the
                                                                     targeted completion dates and the
                                                                     title of officials responsible for
                                                                     implementation of each
                                                                     recommendation. Any
                                                                     recommendations that are not
                                                                     implemented at the end of 90
                                                                     days (after April 11, 2007) will
                                                                     be referred to the Assistant
                                                                     Secretary for Policy,
                                                                     Management and Budget for
                                                                     resolution and/or tracking of
                                                                     implementation.




                                               15
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
